HHS/OIG, Audit -"Northeastern University DHHS Grant Costs CDC No. U17-CCU113278-03,"(A-01-04-01501)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Northeastern University DHHS Grant Costs CDC No. U17-CCU113278-03," (A-01-04-01501)
January 14, 2005
Complete
Text of Report is available in PDF format (420 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our review of grant no. U17-CCU113278 awarded to Northeastern University (the University)
by the Centers for Disease Control and Prevention.  Our objective was to determine whether costs claimed for reimbursement
by the University represented allowable, allocable and reasonable costs under the terms of Department of Health and Human
Services grant.  We identified $194,890 in consultant and related indirect costs that were not adequately supported
as required under Federal regulations and University procedures.  In addition, we found internal control weaknesses
relating to the monitoring of sub-recipient costs, and the submission of untimely financial status reports that were not
reconciled to financial records.  We recommended that the University: obtain consultant agreements for all consultants
working on Federal grants and monitor consultant activity by requiring activity reports, PI certifications, and invoices;
refund $194,890 to CDC for unsupported consultant costs; improve sub-recipient monitoring; and report accurate, current,
and complete financial results that reconcile to financial records.